Number
IN THE SUPREME COURT OF THE
UNITED STATES
OCTOBER TERM, 2020
DANY L. BRANDAO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

FELDMAN and FELDMAN
Attorneys at Law
1129 Northern Boulevard
Suite 404
Manhasset, NY 11030
(516) 441-0452
Reversalzz@aol.com

QUESTION PRESENTED
1. Should certiorari be granted where the police violated the
Fourth Amendment to the United States constitution when, in a narcotics
prosecution, they searched Petitioner’s home, even though all his drug
sales were made miles away, in his vehicle?

i

TABLE OF CONTENTS
QUESTION PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF FACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

POINT 1:
THE DISTRICT COURT SHOULD HAVE SUPPRESSED
THE ITEMS SEIZED AT 134 NORTH LEYDEN
STREET, IN BROCKTON MASSACHUSETTS,
BECAUSE THE AFFIDAVIT IN SUPPORT OF THE
WARRANT DID NOT PROVIDE SUFFICIENT
INFORMATION TO FIND PROBABLE CAUSE THAT
UNLAWFUL ACTIVITY HAD OCCURRED THERE, IN
VIOLATION OF PETITIONER’S RIGHTS UNDER THE
FOURTH AMENDMENT TO THE UNITED STATES
CONSTITUTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
ii

TABLE OF AUTHORITIES
FEDERAL CASES
United States v. Bain, 874 F.3d 1 (1st Cir. 2017) . . . . . . . . . . . . . . . 14
United States v. Brandao, 270 F. Supp. 3d (D. Mass. 2017). . . . . . . 2
United States v. Leon, 468 U.S. 897, 82 L. Ed. 2d 677, 104 S. Ct.
3405 (1984). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15
United States v. Ribeiro, 397 F.3d 43 (1st Cir. 2005). . . . . . . . . . . . 11
United States v. Thompson, 630 F. Supp. 2d 138 (D. Mass. 2009) . 11
FEDERAL STATUTES
21 U.S.C. §§ 841(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

iii

No.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
-------------------------------------------------------------DANY L. BRANDAO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
-------------------------------------------------------------------------------------------PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE FIRST CIRCUIT
---------------------------------OPINION BELOW
There were two decisions below, which are attached to this
petition. The First Circuit’s ruling is unreported; the District Court’s is
reported at United States v. Brandao, 270 F. Supp. 3d 485 (D. Mass.
2017).

1

JURISDICTION
The judgment of the Court of Appeals was decided on May 21,
2021, and this petition for a writ of certiorari is being filed within 90
days thereof, making it timely.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourth Amendment to the United States constitution.

2

STATEMENT OF THE CASE
Petitioner was convicted of Possession with Intent to Distribute
and Distribution of Fentanyl, in violation of 21 U.S.C. §§ 841(a) and
841(b)(1)(C), and Possession with Intent to Distribute 40 grams or More
of Fentanyl, in violation of 21 U.S.C. §§ 841(a) and 841(b)(1)(B)((vi),
and was sentenced to 120 months’ imprisonment.
In an unreported decision, the First Circuit Court of Appeals
granted the Government’s motion for summary disposition on May 21,
2021.

3

STATEMENT OF FACTS
In 2016, Detective Jeffrey Costello, of the Brockton,
Massachusetts Police Department, filed an application for a search
warrant of 134 North Leyden Street, Brockton, Massachusetts. The
search warrant was issued by a clerk magistrate of the Brockton District
Court. In support of his application, Detective Costello alleged that, in
September 2016, a confidential informant (“CI”) told a detective at the
East Bridgewater Police Department, David Perrault, that a Cape
Verdean male named “Dany,” who drove a white Infiniti sedan, bearing
Massachusetts

license

plate

number

323FX6,

“was

dealing

heroin/fentanyl in the City of Brockton.” A search on that license plate
number revealed Clara Darosa, of 134 North Leyden Street, Brockton,
MA, owned the vehicle. She was Dany L. Brandao’s mother. The CI
positively identified Brandao as the individual he spoke of as “Dany.”
In response to a police request, Federal Probation Officer Jessica
Turkington informed the police that Brandao was on federal supervised
release in federal district court, following a sentence for possession with
intent to distribute over one kilogram of heroin. She “confirmed that

4

Brandao lives at 134 N. Leyden Street, Brockton, MA,” and also
provided his contact telephone number.
The affidavit then described four separate controlled buys the
police made from the defendant, all of which occurred miles away from
Petitioner’s home.
The first sale occurred on October 7, 2016. Perrault, acting in an
undercover capacity, arranged to meet with Brandao to purchase 2.5
grams of heroin for $150.00. Brandao directed Perrault to meet him at
Hamilton Street in Brockton, Massachusetts.
The second sale occurred four days later, on October 11, 2016.
Shortly after 11:00 a.m., the police established surveillance of 134 North
Leyden Street and again observed the Infiniti sedan, bearing license plate
number 323FX6, parked outside the residence. At approximately 2:15
p.m., Brandao responded to Perrault, who arranged to purchase five
grams of heroin/fentanyl from Brandao. They agreed to meet at the same
spot, on Hamilton Street, as they did on October 7. Around 2:40 p.m., an
undercover agent observed Brandao leave 134 North Leyden Street and
enter the Infiniti sedan. Brandao drove directly from 134 North Leyden
Street to the meeting spot on Hamilton Street and arrived at 2:47 p.m.
5

Perrault exited his vehicle and entered Brandao’s Infiniti to make the
buy. In exchange for $300.00, Brandao gave Perrault two clear plastic
bags, each containing white powder, which he believed was fentanyl.
The third sale occurred about two weeks later, on October 25,
2016. Around 11:00 a.m., officers began surveilling 134 North Leyden
Street. At 11:37 a.m., Perrault made contact with Brandao and agreed to
meet in twenty-five minutes on Hamilton Street. Around 12:12 p.m.,
agents observed Brandao leave 134 North Leyden Street and enter a
white Ford Fusion that had been parked across the street from the house.
Officers ran a search of the vehicle’s license plate and found that it had
been rented to Brandao’s girlfriend. Brandao then drove directly from
134 North Leyden Street to Hamilton Street and arrived around 12:21
p.m. There, Brandao gave Perrault two plastic bags, each of which
contained 2.5 grams of white powder, which Perrault again believed to
be fentanyl, in exchange for $300.00.
The fourth sale occurred on November 1, 2016. Around 11:00
a.m., Perrault contacted Brandao to purchase ten grams of heroin for
$550.00. At 1:10 p.m., Brandao responded to Perrault and they agreed to
meet at the same spot on Hamilton Street in twenty-five minutes. At 2:00
6

p.m., officers observed Brandao exit 134 North Leyden Street, enter a
Jeep Grand Cherokee, and drive directly to Hamilton Street. He arrived
at 2:07 p.m. Perrault entered the Jeep Grand Cherokee and handed
Brandao $550.00. After counting the cash, Brandao removed a piece of
the trim on the dashboard and removed a large clear plastic bag, which
contained four smaller bags, which he handed to Perrault. Officers later
confirmed the bags contained fentanyl.
Three days after the fourth controlled buy, a Brockton District
Court clerk magistrate issued a warrant to search 134 North Leyden
Street for drug paraphernalia and related materials, including documents,
records, and sums of money. On November 8, 2016, officers executed the
search of 134 N. Leyden Street and seized several bags of fentanyl,
related drug paraphernalia, a handgun, and several rounds of
ammunition.

7

SUMMARY OF ARGUMENT
Petitioners’ Fourth Amendment motion to suppress the
Government’s seizure of contraband in his home should have been
granted, because he made his drug sales miles away, in his car.

8

ARGUMENT
POINT I
THE DISTRICT COURT SHOULD HAVE SUPPRESSED
THE ITEMS SEIZED AT 134 NORTH LEYDEN STREET,
IN BROCKTON MASSACHUSETTS, BECAUSE THE
AFFIDAVIT IN SUPPORT OF THE WARRANT DID
NOT PROVIDE SUFFICIENT INFORMATION TO FIND
PROBABLE CAUSE THAT UNLAWFUL ACTIVITY
HAD OCCURRED THERE, IN VIOLATION OF
PETITIONER’S RIGHTS UNDER THE FOURTH
AMENDMENT TO THE UNITED STATES
CONSTITUTION.
The First Circuit Court of Appeals ruled that “ ... Brandao has
entirely failed to demonstrate that the district court erred in denying his
motion to suppress the fruits of the warranted search ....” (Judgment: 1).
It is incorrect. Where, as here, the search warrant affidavit failed to
demonstrate a nexus between the four controlled buys, that occurred
miles away from 134 North Leyden Street, and the house itself, the
search violated the Fourth Amendment to the United States constitution.
Certiorari should now be granted because, absent proof of unlawful
activity in the house, all the items seized there, including the fentanyl,
drug paraphernalia, handgun, and rounds of ammunition, should have
been suppressed.

9

In the search warrant affidavit, the police never alleged there was
suspicious activity at the residence. Nor did they make any observations
of drugs within or near the residence. None of the four sales were made
in the house. Neither the informant nor the police ever saw any drugs in
or near the house, and the police never seized any trash to determine if
there were illicit narcotics in, or emanating from, the house. Nor did they
see any accoutrements of the trade, in or near the house, such as bagging
material, large sums of cash, weapons or scales.
Before the planned narcotics transactions, the police never saw
Petitioner carrying drugs from the home to his car. While the District
Court said they saw him with a “tiny little bag,” and, on another, they
saw him take a “big bag” from the car, they never knew what was in the
bags. This, therefore, was speculation.
All the sales were, in fact, consummated approximately two miles
away from the house. The only drugs the police ever saw were hidden
under dashboard trim in a Jeep, and they did not know whether Petitioner
stored the narcotics in one of the three vehicles he drove. Even defense
counsel argued the drugs “ ... could have ... been in the car.”

10

Probable cause to believe that drugs would be present in the home
is not established by the fact that the defendant lived there. Even if the
police had probable cause to search Petitioner’s vehicles, in which he
made drug sales, they did not have probable cause to search his home.
When the police sought the warrant, the affiant never drew from
his training and experience, namely, that drug traffickers frequently use
their homes for storing cash and records associated with their business.
Compare United States v. Ribeiro, 397 F.3d 43, 46 (1st Cir. 2005). See
also United States v. Thompson, 630 F. Supp. 2d 138, 143 (D. Mass.
2009)(“In upholding searches of a drug suspect’s residence, the First
Circuit has relied on a number of considerations including: 1) the
affiant’s statement, drawn from his or her training and experience, that
drug traffickers frequently use their homes for storing cash and records
associated with their business ....”).
But even if the Officer had included this information in the
affidavit, it would still not substitute for a sufficient evidentiary nexus,
which was lacking here.
Of course, when a defendant sells drugs immediately outside his
home, it may be reasonable to conclude there is evidence of his drug

11

dealing activity inside the home, particularly when the defendant is
observed leaving the home prior to selling the drugs. But that inference
does not apply when no police or confidential informant have ever been
in the home, and thus never saw drugs there. Nor does it apply when the
police have never found traces of heroin or fentanyl anyplace in or
around the home. Finally, it does not apply when the search warrant
affidavit does not contain details on how the officer’s experience leads
them to believe that the Petitioner has used his home to store drugs, drug
proceeds, drug records, telephone numbers of suppliers and customers or
drug trafficking paraphernalia.
The lack of a nexus between the house and drug sales is magnified
by the District Court’s misapprehension of the facts regarding the
November 1, 2016 transaction. When Detective Perrault arranged to buy
a larger quantity of drugs than the previous three controlled buys, law
enforcement observed a man make a quick visit in a gray minivan to
Brandao’s residence. Shortly after this visit, Brandao made contact with
Perrault to sell the drugs. This evidence, according to the District Court,
gave “ ... rise to a reasonable inference that Brandao used his residence
to receive drugs for distribution.” It is wrong. The Court could only draw

12

the inference that Brandao used the residence as a stash house by finding
that he lived there alone, and there was no other purpose for the heavyset
man’s visit. The District Court thus explicitly found “[t]here’s no
evidence that anybody else lived there ....” In fact, Petitioner lived in the
house with another man as well as two children. Hence, while the Court
may have believed the only purpose of the heavyset man was to deliver
narcotics, he just as easily may have been there for a myriad of innocent
reasons, ranging from the delivery of amoxicillin to a young child with
a throat infection to the delivery of an invitation to the adult about an
upcoming party.
Even if Petitioner’s residential status did not enter into the District
Court’s Fourth Amendment calculus, the police never saw the heavyset
man have anything to do with the drug trade, and never saw him carrying
anything into the home. On these facts, there is not even a fair probability
that contraband would be found in the home. Under the totality of the
circumstances set forth in the affidavit, these events simply do not
establish the requisite nexus between the home and the criminality.
Certiorari should thus be granted to find that, were the District
Court’s rationale accepted, every time a defendant sells drugs from his

13

car, miles from his home, it could still be automatically searched, even
though there is no probable cause to believe there were drugs or evidence
of criminality in the home. Yet probable cause to search a home is not
furnished simply because a defendant, who has committed a crime, lives
there. To find otherwise would be to invite general warrants authorizing
searches of any property owned, rented, or otherwise used by a criminal
suspect--the very type of broad warrant the Fourth Amendment was
designed to foreclose. See, e.g., United States v. Bain, 874 F.3d 1, 23-24
(1st Cir. 2017)(“We have expressed skepticism that probable cause can
be established by the combination of the fact that a defendant sells drugs
and general information from police officers that drug dealers tend to
store evidence in their homes.”).
Because there was insufficient probable cause to issue a warrant
to search the house at 134 North Leyden Street, in Brockton,
Massachusetts, all items seized during the search should have been
suppressed.
Although neither the Circuit nor District Courts addressed the
Leon good faith exception, even if they did, it would be inapplicable
here. United States v. Leon, 468 U.S. 897, 82 L. Ed. 2d 677, 104 S. Ct.

14

3405 (1984). While the police had probable cause to believe Petitioner
committed a crime in three vehicles, the affidavit was lacking because
there was no evidence, of any kind, that any sales, or any illegal activity
had occurred in his home. The police essentially sought the warrant to
search the house solely on the basis of their own conclusory assertions
that, no matter where a defendant sells drugs, his home could also be
searched, on the dubious and unsupportable proposition that drug dealers
always store drugs, or evidence or the narcotics trade, in their homes.
In relying on this warrant, the police acted unreasonably. Here, no
law enforcement officer could manifest objective good faith in relying on
this warrant because the affidavit to search the house was so lacking in
indicia of probable cause as to render official belief in its existence
entirely unreasonable. The Leon good-faith exception thus does not
apply. Accordingly, the items seized at 134 North Leyden Street, in
Brockton, Massachusetts, should have been suppressed as an illegal
search and seizure under the Fourth Amendment to the United States
constitution.

15

CONCLUSION
THE WRIT OF CERTIORARI SHOULD BE
GRANTED.

Dated: May 26, 2021
Manhasset, New York
Respectfully Submitted,

Arza Feldman
Arza Feldman

16

UNITED STATES
SUPREME COURT

DANY L. BRANDAO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

I affirm, under penalties of perjury, that on May 26, 2021, we
served a copy of this petition for writ of certiorari, by first class United
States mail, on the United States Attorney, District of Massachusetts,
John Joseph Moakley United States Federal Courthouse, 1 Courthouse
Way, Suite 9200, Boston, MA 02210, on the Office of the Solicitor
General, 950 Pennsylvania Avenue, NW, Washington, D.C. 20530, and
on Dany L. Brandao, 93601-038, FCI McDowell, 101 Federal Drive, Welch,
WV 24801. Contemporaneous with this filing, we have also transmitted

a digital copy to the United States Supreme Court and are filing one copy
of the petition, instead of 10, with this Court, pursuant to its April 15,
2020 order regarding the Covid-19 pandemic.
Arza Feldman
Arza Feldman
17

